April 4, 2013
Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
  U.S. Army Corps of Engineers
 
An urgent safety matter has come to my attention that I believe requires immediate action. Specifically, USACE
officials have decided to continue using foam insulation and thermal barrier systems in the construction of K-
Span structures for the Afghan National Army (ANA), despite knowledge that, if improperly installed, these
materials pose a serious fire and life safety risk.1
Last year, three K-Span structures built for the ANA caught fire during construction, resulting in property
damage.2 USACE recently examined this matter and issued a decision paper, updated March 10, 2013, that
found these fires were linked to the foam insulation and thermal barrier systems used by contractors in
constructing K-Span structures (see enclosure).3 Allegedly, the contractors installed foam insulation and
thermal barrier systems that were not compliant with International Building Code (IBC) standards. USACE
determined that a potentially serious fire and life safety hazard exists with ANA K-Span facilities in which foam
insulation systems were not properly installed in accordance with IBC standards. USACE identified three
categories of ANA K-Span structures affected by this fire and life safety risk:
        structures with the foam insulation and thermal barrier systems already installed,
        structures currently in various stages of construction in which the foam insulation or thermal barrier
         system is in the process of being installed, and
        recently awarded contracts for which the application of foam insulation or thermal barrier products
         has not yet been installed.
I am troubled that USACE’s risk assessment determined that “almost all of the completed facilities have
insulation installed that currently can not be shown to meet the requirements of the IBC code.” In fact,
according to USACE, for two contracts consisting of forty-five (45) structures with completed systems installed,
only “one is in full compliance” with IBC standards. USACE determined the most appropriate course of action to
respond to this potential fire and safety risk was to place fire safety warning cards within K-Span structures,
“along with a ‘fire-watch’ during rest hours.”




1 According to a DOD document, K-Span is a rust resistant, weather resistant, and fireproof structure. According to USACE’s

decision paper, K-Span structures replaced concrete/masonry structures for many ANA projects in the 2010 timeframe.
Contract specifications required foam insulations with a cementitious thermal barrier that meets International Building
Code requirements.
2 USACE documents reported that one of the fires resulted in $400,000 in property damage and another resulted in an

estimated $388,000 in property damage.
3 US Army Corps of Engineers, Afghanistan District South (TAS), “Decision Paper. Subject: Afghanistan Engineer District –

Afghan National Army (ANA) K-Span Foam Insulation and Thermal Barrier System for Completed and On-going Structures”
(Afghanistan: updated March 10, 2013).
USACE estimates that in southern Afghanistan alone, there are “approximately 1,002 K-Span structures in
various stages of construction,” for eventual use by the ANA. Alarmingly, “704 structures are in various stages
of installation of the foam insulation and barrier system” that USACE has identified as non-compliant with IBC
standards. An additional “298 structures do not have the insulation or thermal barrier systems in place.” To
avoid further expense and delays in project completion dates, USACE guidance to contractors for any
structures that do not yet have systems fully in place is to “proceed with the materials that have been
previously approved and that are currently on site.”
Given the safety risk to the ANA troops who occupy facilities in which non-compliant materials are likely to have
been used as well as the number of K-Span facilities under construction, we are alerting you to our concern
over this serious fire and life safety risk. We are requesting you to immediately reconsider the decision to
continue using IBC non-compliant insulation foam and thermal barrier systems for K-Span facilities currently
under construction. Please report to us once this has been done.
In the meantime, SIGAR has opened an investigation into this matter. In support of that investigation, this issue
is being reviewed by our Special Projects Office. Therefore, I request that USACE provide my staff with all
information and supporting documentation on the decision to continue using IBC non-compliant foam
insulation and thermal barriers systems in completed, current, and upcoming construction projects. We also
request copies of all inspection reports, fire reports, and assessments pertaining to these K-Span buildings, as
well as documentation regarding the risk assessment and decision made to use K-Span structures and related
code requirements in the construction of ANA facilities.
To the extent that the construction projects for the Afghan National Police (ANP) also contain K-Span facilities,
we are requesting similar information, including the number of ANP contracts calling for K-Span facilities, the
number of facilities completed and in various stages of construction, and any risk assessments or mitigation
measures conducted to address fire or life safety issues.
Should you or your staff have any questions or need additional information, please contact Monica Brym,
Director of Special Projects, at                                            . Thank you in advance for your
cooperation.
 




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction 
 
 
Enclosure


CC:
General Lloyd J. Austin III, Commander, U.S. Central Command

General Joseph F. Dunford, Jr., Commander, U.S. Forces–Afghanistan and
 Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger, Commanding General, NATO Training Mission-Afghanistan/
  Combined Security Transition Command-Afghanistan 




SIGAR SP 13-3/Management Safety Alert Letter (K-Span ANA facilities)                                       Page 2
          US Army Corps of Engineers
          Afghanistan District South - TAS



                                            DECISION PAPER

SUBJECT: Afghanistan Engineer District – Afghan National Army (ANA) K-Span Foam Insulation and
Thermal Barrier System for Completed and On-going Structures

DATE: Updated 10 March 2013

LOCATION: ANA Projects in Afghanistan

PURPOSE: To recommend courses of actions for the three various scenarios that exist on both the TAN
and TAS contracts.

CURRENT STATUS:

      Transatlantic District North and South (TAN) and (TAS) have a potential life safety/fire safety issue
       regarding the form insulation and thermal barrier system installed on some of the K-Span buildings
       on ANA projects.

      TAN and TAS have three categories of structures: (i) Structures that have the foam and thermal
       barrier products installed (Reference Figures B-1 and B-2); (ii) Structures that are currently in
       various stages of construction with the application of a form and or thermal barrier product with
       submittals being provided (Reference Figure B-3); (iii) Recently awarded contracts for which no
       submittals have been provided (Reference Figure B-4).

      TAS currently has twenty-one (21) contracts for ANA projects that have approximately 1,002
       K-Span structures in various stages of construction.

              Eleven contracts consisting of seven hundred and four (704) structures are in various stages
               of installation of the foam insulation and thermal barrier products. The system (Baymar –
               Polyurethane Insulation and the DC-315 – Fire proof paint) does not meet the IBC
               requirement (Reference Tab A-1).

              The remaining ten contracts consisting of two hundred and ninty-eight (298) structures do
               not have the insulation or thermal barrier systems in place. Nine of these contracts do not
               have approved or acknowleged submittals regarding the insulation or thermal barrier system
               (Reference Tab A-2).

      One contract consisting twenty-three (23) strucutres has been completed and is currently occupied
       by the ANA.

      Two contracts consisting of forty-five (45) structures have completed systems installed; one of
       which is in full compliance with the code while the only is in partical compliance.

      Serial letters have been sent to each contractor for these ten contracts advising them of the
       expectations and the requirements of their contracts regarding the foam insulation and thermal
       barrier. One of the contractors provided their submittal prior to the issuance of the serials letters.

      Several of the contractors have contracts in each of the three primary categories indicated above, the
       intent is to provide clear and consistent guidance based on the facts that have been identified at this
       point in time.

      Based on discussions with Mr. Booker on 5MAR, for those K-Span structures with partially
       installed foam insulation / thermal barrier systems, the guidance is to proceed with the materials that
       have been previously approved and that are currently on site.


                                               Page 1
           US Army Corps of Engineers
           Afghanistan District South - TAS



BACKGROUND: Many structures in the ANA projects were changed from concrete/masonry structures to
K-Span structures in order to shorten construction periods. The standard designs for these structures were
done by Baker Engineering and put into contracts in the 2010 timeframe. The first round of contracts that
had K-Span structures in them were released as design-build contracts with the contractors being responsible
for the design. These were to be designed and built to meet IBC standards. The second round of contracts
were issued with the Baker Engineering produced plans and specifications which required foam insulations
and cementitious barriers that met the IBC code. Then there were other contracts that were issued with just
the standard Baker drawings and without the specifications. Nevertheless, the drawings still required that
the contractor to use IBC approved foam insulation with a cementitious thermal barrier.

Within the last year, three different projects had K-Span structures catch on fire during construction which
elevated the awareness that the foam insulation system, if not done in accordance with code and with proper
safety measures, potentially pose a serious fire/life safety hazard. Since these fires, extensive research into
the code requirements, and validation of what systems have been installed on these structures (Reference
Tab A). It has been determined that almost all of the completed facilities have insulation installed that
currently can not be shown to meet the requirements of the IBC code. Many of these facilities also do not
have thermal barrier systems that can be validated that meet code requirements.

KEY ISSUES/RISKS FOR COURSES OF ACTION (COAs): Issues and risks for the three various
stages of construction are as follows:

    1. Completed K-Span structures – 
       COA 1 : Remove and replace the non-compliant insulation and thermal barrier systems
        Impacts / Risks:
           Impact. Significant delay to BODs with adverse affect on mission requirements. Would
             need direction from the Division which would also involve coordination with NTMA.
             Additional funding would be required
           Risk: It is unclear at this time what process would be used to remove the existing materials
             and potential consequenes associated with it removal.

        COA 2: Leave the current system in place and development a risk mitigation program such as the
        use of placards with the appropriate warning indicated along with a “Fire-Watch” during rest hours.
         Impacts / Ricks:
             Impact. Minimal. The subsequent cost associated with the implementation of the risk
                mitigation program would also be minimal.
             Risks: Potentially significant. Most of the completed K-Span structures, as noted above, do
                not have insulation and thermal barrier systems that meet the requirements of the IBC code.
                As such they present a potential fire and life safety hazard. The exact degree of risk would
                be dependant on the type of insulation used in each structure, the type of thermal barrier, the
                type of ceiling system, if used, and the function of each building. For instance, the risks
                would be highest in a barracks facility with no gypsum board ceiling, foam insulation that
                does not meet IBC code, and with no thermal barrier in place.




                                               Page 2
      US Army Corps of Engineers
      Afghanistan District South - TAS



2. K-Span structures with partially installed foam insulation/ thermal barrier systems –
   COA 1 : Remove and replace the non-compliant insulation and/or thermal barrier system(s)
    Impacts / Risks:
       Impact. Significant delay to BODs with adverse affect on mission requirements. Would
         need direction from the Division which would also involve coordination with NTMA.
         Additional funding would be required
       Risk: It is unclear at this time what process would be used to remove the existing materials
         and potential consequenes associated with it removal.

   COA 2: Leave the current foam system in place and direct the contractor to apply the IBD code
   complaint thermal barrier.
    Impacts / Ricks:
       Impact. Potentially significant. A majority of these contracts have the materials already on
          site and have had submittals for either systems initially approved. The reprocurement time
          and the reallocation of planned activities could impact project completions dates. The extent
          of delay and costs, if any, would vary depending on the current stage of construction and
          time required to obtain a new type of approved thermal barrier.
       Risk: It is anticipated that the risk for fire could be reduced, however, the combination of the
          non-compliant foam and the compliant thermal barrier has not been tested. imilar to
          completed structures just discussed, K-Span buildings with foams installed

   COA 3: Allow the contractor(s) to install the current system for which submittals have been
   previously submitted and approved. Leave the current system in place and development a risk
   mitigation program such as the use of placards with the appropriate warning indicated along with a
   “Fire-Watch” during rest hours.
    Impacts / Ricks:
        Impact. Minimal. The subsequent cost associated with the implementation of the risk
           mitigation program would also be minimal.
        Risk: Similar to the already completed structures just addressed, these K-Span buildings
           with foam installed that do not meet IBC code will present a potential fire and life safety
           hazard. As such they present a potential fire and life safety hazard. The exact degree of
           risk would be dependant on the type of insulation used in each structure, the type of thermal
           barrier, the type of ceiling system, if used, and the function of each building.

   UPDATE: During discussions with Mr. Booker and Mr. Lee on 5 MAR, COA 3 was determined to
   be the most appropriate course of action with the incorporation of the risk mitigation program.

3. K-Span structures without approved/acknowledged foam insulation or thermal barriers –  

   COA 1: Direct the contractor(s) to provide and install the code compliant system.
    Impacts / Ricks:
      Impact. Minimal. Submittals have not yet been submitted for these contracts. Letter(s) of
         Direction addressing the code complaint foam and thermal barrier systems have been issued
         for these contracts.
      Risk: Minimal. Direction has been provided which should allow these recently awarded
         contracts the ability to incorporate into their schedules the anticipate procurement time of
         this material.




                                         Page 3
               US Army Corps of Engineers
               Afghanistan District South - TAS




Figure B-3 – Structures under construction with foam /thermal barrier in various stages.




Figure B-4 – Structures for which no systems have been installed. These will be code compliant.




                                                               Page 8
